HHS/OIG-Audit--"Review of Unique Supplies, A Working Capital Fund Activity, (A-12-91-00010)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unique Supplies, A Working Capital Fund Activity," (A-12-91-00010)
October 28, 1991
Complete Text of Report is available in PDF format
(172 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of Unique Supplies, A
Working Capital Fund (WCF) Activity. Our review disclosed that Unique Supplies
is having and will continue to have problems in recovering costs unless significant
changes in operations are instituted. The activity has shown losses of $51,308,
$205,428, and $94,744 in Fiscal Years 1989, 1990 and mid-year 1991 respectively.
We determined the losses were caused by selling the majority of products at
or below cost thereby failing to recover costs and overhead. We also found inventory
was inadequate because valuations of items were not current and internal controls
were weak.